This Agreement sets forth terms for the use of the TruWest Credit Union
Visa Card (referred to as “the Card”) and contains various disclosures
and information required by law.

Your TruWest® Credit Union Visa® Card
Agreement, Disclosure and
Billing Rights Notice
Effective 10/15/2018

PLEASE READ THEM CAREFULLY.
In this Agreement the words “you,” “your,” “yours,” and
“Cardholder,” mean each and all persons who receive, sign, or
use a Card under this Agreement. The words “we,” “us,” “our,”
“TruWest,” and “Credit Union,” mean TruWest Credit Union.
By use of the Card, Cardholder accepts the Card and agrees to
be bound by these terms and conditions and Visa Association’s
operating rules.
VISA CARD HOLDER AGREEMENT AND
BILLING RIGHTS NOTICE
1. CARD OWNERSHIP:
Any Visa Card issued to you or to another person at your
request remains the property of TruWest Credit Union. The
Credit Union may terminate your Visa account at any time and
you will destroy your Card or Cards promptly upon demand.
2. Visa CARD ISSUANCE:
You have made an application with TruWest Credit Union,
which established your request that we issue to you a TruWest
Credit Union Visa Card.
3. RESPONSIBILITY:
When we issue you a Card(s), you agree to repay all debts
and FINANCE CHARGES arising from the use of the Card(s)
and the Card account. For example, you are responsible
for charges made by yourself, your spouse, and your minor
children. You are also responsible for charges made by anyone
to whom you give the Card(s). This responsibility continues until
the Card(s) is recovered. You cannot disclaim responsibility by
notifying us. We will close the account for new transactions if
you so request. You shall destroy all Cards. Your obligation to
pay the account balance continues even though an agreement,
divorce decree or other court judgment to which we are not a
party may direct you or other persons responsible to pay the
account. Any person using the Card(s) is jointly and severally
liable with you for charges he or she makes. Any person who
signs the Card(s) becomes a party to this Agreement and
is jointly and severally liable for all charges on the account
balance, including yours.
4. CREDIT LIMIT:
We will establish a self-replenishing line of credit to be drawn
upon as you utilize your TruWest Credit Union Visa Card.
The amount of the credit limit will be based upon a variety of
factors, including, but not limited to, your ability to pay and your
creditworthiness. You agree not to request advances or make
purchases that would exceed your credit limit at any time. We

will advise you of your credit limit in writing and it will become
part of this agreement by reference. You agree to advise us of
any change(s) in your financial condition, which may affect your
creditworthiness.
5. USING THE CARD:
To make a purchase or to request a cash advance, you may
1) use the Card at a participating Visa plan merchant, TruWest
Credit Union or another financial institution; 2) use the Card in
conjunction with your Personal Identification Number (PIN) at
an Automated Teller Machine (ATM) or other type of electronic
terminal that provides access to the Visa system; 3) use the Card
in a telephone sales transaction; or 4) use the Card in a mail
order transaction. A monthly statement will identify the merchant,
Your Visa Card Agreement, Disclosure and Billing Rights Notice
Effective 9/23/11 electronic terminal or financial institution where
transactions were made. You should retain all sales, cash
advance, credit or other slips received at the time of transaction
to verify your monthly statement.
6. GRACE PERIOD:
Grace period is 25 days from the statement Closing Date
(provided you have paid in full the New Balance Total from the
previous statement by its Payment Due Date).
7. COLLECTION COSTS:
If you are in default and we demand payment in full, you
understand that you will be charged FINANCE CHARGES on
the unpaid balance at the monthly periodic rate shown in the
FINANCE CHARGES section in the supplemental disclosure,
collection costs and late charges, if any, until you repay your loan.
You also agree to pay our reasonable attorney’s fees and
court costs.
8. LIABILITY FOR UNAUTHORIZED USE:
You should retain copies of all charge slips until you receive
your statement, at which time you should verify that the charges
are true and the amounts unaltered. You may be liable for the
unauthorized use of your Visa card. You may not be liable for
unauthorized use(s) of your Visa card that occur after you have
notified us of the loss, theft or possible unauthorized use of your
Visa card. You must notify TruWest Credit Union within two (2)
days of learning of the loss, theft or possible unauthorized use of
your Visa card. You must notify TruWest Credit Union in writing at
TruWest Credit Union
PO Box 78637
Phoenix, AZ 85062-8637
or by calling us at the phone numbers listed in Section 9 of this
Agreement. Your liability for unauthorized use of your credit
card will not exceed $50.00. Unauthorized use does not include
use by a person to whom you have given the Visa card or use
by a person to whom you have given authority to use the Visa
card. You will be liable for use by such users. To terminate this
authority, you must retrieve the Visa card from the previously
authorized user and return it to us at the address mentioned
above along with a letter explaining why you are doing so.
9. LOST OR STOLEN CARD(S):
Please notify us immediately of the loss, theft, or possible
unauthorized use of your Visa Card(s) at 1 (855) 878-9378.

10. CARD ACCEPTANCE:
Some purchases will require our prior authorization. You may
be asked by the merchant to provide identification with your
transaction. If our authorization system is not working, we
may not be able to authorize a transaction, even if you have
sufficient available credit. We will not be liable to you when
these events occur. We are not responsible for the refusal of
any merchant to accept or honor your Visa Card(s).
11. RETURNS & ADJUSTMENTS:
Merchants and others who honor the Visa Card may give
credit for returns or adjustments by remitting to you a credit slip
and by sending us a notification. We will post any returns or
adjustments to your account upon merchant notification. If your
credits and payments exceed what you owe, we will apply the
excess against future purchases and cash advances. We will
refund any account credit over $1.00 upon your written request
or automatically after six (6) months.
12. FOREIGN TRANSACTIONS:
If you incur a charge in a foreign country where there is
no currency conversion, the transaction will incur an eighttenths (0.8) percent fee. If the transaction requires a currency
conversion, TruWest Credit Union will convert the charge into a
U.S. Dollar amount. We will use the procedures in effect at the
time that the transaction is processed. Currently the currency
conversion rate to be used is either (1) a wholesale market
rate or (2) a government-mandated rate in effect one (1) day
prior to the processing date, increased or by one (1) percent
for multi-currency transactions. The currency conversion rate in
effect on the processing date may differ from the rate in effect
on the transaction date or the posting date. Transactions in
certain countries may be blocked and will require a manual or
verbal authorization for approval. Please check with the Credit
Union prior to departure to determine if your destination country
is affected. The right to deny such transactions is within the
sole discretion of the Credit Union and affected countries may
change at any time.
13. EFFECT OF AGREEMENT:
The terms and conditions of this Agreement shall be controlling
and apply to all transactions on your account.
14. CHANGE IN TERMS:
We may change any term or part of the Agreement, including
FINANCE CHARGE rate, fee or method of computing any
balance upon which the FINANCE CHARGE rate is assessed,
by sending you a written notice to the address noted on our
records at least forty-five (45) days prior to the effective date
of the change. Such changes will apply, in accordance with
applicable laws and regulations, to the Card(s), except for an
increase in the FINANCE CHARGE rate, which will apply only
to new transactions made under this Agreement.
15. TERMINATION/CARD CANCELLATION:
The decision of the Credit Union will be final and binding,
should it find that good cause exists for terminating this
Agreement. You will be in default under this agreement upon:
(a) your failure to make the Minimum Payment when due;
(b) your violation of any other provision of this Agreement;

(c) your death; (d) your becoming the subject of a bankruptcy
or insolvency proceeding; (e) your becoming the subject of
an attachment, foreclosure, repossession, lien judgment or
garnishment proceeding; (f) your failure to supply us with any
information we reasonably deem necessary; (g) your supplying
us with misleading, false, incomplete or incorrect information;
(h) our receipt of information that you are unwilling or unable to
perform the terms or conditions of this Agreement; (i) indication
by our reporting agencies of your serious delinquency; (j) your
moving out of the U.S. or providing us with a non-U.S. mailing
address; (k) your becoming incompetent; (l) your exceeding your
credit limit; (m) your payment is returned unsatisfied by a bank
or financial institution for any reason; or (n) any credit card check
is returned unpaid by us. You will be advised of the reasons for
any adverse actions. When your Account is closed, you agree
to destroy your Card(s) and return to us any unused credit card
checks. We will not honor any credit card check(s) we receive
after your Account has been cancelled. After your default, your
Account balance will continue to accrue FINANCE CHARGES
at the contract rate. Upon default, we have the right to terminate
or suspend your credit privileges under this Agreement, change
the terms of your Account and this Agreement, require you to
pay your entire Account balance including all accrued but unpaid
charges immediately, and sue you for any amount owed to
us. Upon default, you will pay related court costs, reasonable
attorneys’ fees, and other collection costs to the extent permitted
by the law in the state in which you reside. Upon default, we will
apply your payments in the following order: (1) attorneys’ fees; (2)
principal balance; and (3) unpaid FINANCE CHARGES.
16. CLOSING YOUR ACCOUNT:
You can cancel or close your Account by notifying us in writing.
Your notice becomes effective within five (5) days after we receive
it. When you cancel the Account, the remaining outstanding
balance will continue to accrue FINANCE and other charges and
is subject to the terms and conditions of
this Agreement.
17. GOVERNING LAW:
You understand and agree that this Agreement is made in Arizona
and shall be governed and construed according to the laws of the
State of Arizona to the extent that Arizona law is not inconsistent
with controlling Federal laws.
18. CREDIT INFORMATION:
You authorize us to investigate your credit standing when
opening or reviewing your account. You authorize us to disclose
information regarding your account to credit bureaus and other
creditors who inquire of us about your credit standing to the extent
authorized by law.
19. WAIVER:
We may delay enforcing our rights under this Agreement without
losing them. A waiver of any right by us shall not be deemed a
waiver of other rights or of the same right at
another time.
20. ACKNOWLEDGEMENT:
This Visa Agreement and Supplemental disclosure have been
furnished to you by TruWest Credit Union. You acknowledge

receipt of and acceptance of said Agreement by the signing,
acceptance, and/or use of the Visa Card issued to you. You
hereby accept all of the terms and conditions of this Visa Card
Agreement and Disclosure Statement.
21. CREDIT REPORTING:
If you fail to fulfill the terms of your credit obligation, a negative
report reflecting on your credit record may be submitted to a
credit reporting agency. If any specific information related to your
Account transactions or credit experience with us is inaccurate,
you may request us to correct the inaccurate information (after
confirmation of the alleged error) reported to any credit reporting
agency by notifying us in writing at TruWest Credit Union, PO Box
78637, Phoenix, AZ 85062-8637.
22. INTERNET GAMBLING:
Internet gambling may be illegal in the jurisdiction in which you
are located; if so, you are not authorized to use your Visa Card
to complete these transactions. The Credit Union assumes no
responsibility or culpability whatsoever for any illegal use of
the Card.
YOUR BILLING RIGHTS:
This notice contains important information about your rights and
our responsibilities under the Fair Credit Billing Act.
KEEP THIS NOTICE FOR FUTURE USE.

FINANCE CHARGES and missed payments on the questioned
amount(s). We will send you a statement of the amount you owe
and the date it is due. If you fail to pay the amount we think
you owe, we may report you as delinquent. However, if our
explanation does not satisfy you and you write us within ten (10)
days telling us that you still refuse to pay, we must tell anyone we
report to that you have a question about your
statement, and we must tell you the name of anyone we report
you to. We must tell anyone we report you to that the matter
has been settled between us when it is finally resolved. If we do
not follow these rules, we cannot collect the first $50.00 of the
questioned amount, even if our statement was correct.
3. SPECIAL RULES FOR CREDIT CARD PURCHASES:
If you have a problem with the quality of property or services that
you purchased with your Visa Card and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the property or
services. There are two limitations on this right:
a. You must have made the purchase in your home state
or, if not within your home state, within 100 miles of your
current mailing address; and
b. The purchase price must have been more than $50.00.
These limitations do not apply if we own or operate the
merchant or if we mailed you an advertisement for the 		
property or services.

1. PROCEDURES TO NOTIFY US IN CASE OF ERRORS OR
QUESTIONS ABOUT YOUR STATEMENT:
If you think your statement is wrong, or if you need more
information about a transaction on your statement, notify us in
writing on a separate sheet at TruWest Credit Union, PO Box
78637, Phoenix, AZ 85062-8637. Write us as soon as possible.
Do not send the notice on or with your payment. We must hear
from you no later than sixty (60) days after we send you the first
statement on which the error or problem appeared. You can call
us at 1 (855) 878-9378, but doing so will not preserve your rights.
You must include the following information in your notice: (1) your
name and account number; (2) the dollar amount of the suspected
error; (3) the posting date of the transaction in question; and (4) a
description of the error and an explanation, if you can, of why you
believe there is an error. If you need more information, describe
the item you are not sure about.
2. YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER WE
RECEIVE YOUR WRITTEN NOTICE:
We must acknowledge your letter within thirty (30) days, unless
we have corrected the error by then. Within ninety (90) days,
we must either correct the error or explain why we believe the
statement was correct. After we receive your letter, we cannot try
to collect any amount you question or report you as delinquent.
We can continue to bill you for the amount you question, including
FINANCE CHARGES, and we can apply any unpaid amount
against your credit limit. You do not have to pay any questioned
amount while we are investigating, but you will still be obligated
to pay the parts of your statement that are not in question. If
we find that we made a mistake on your statement, you will not
have to pay any FINANCE CHARGES related to the questioned
amount(s). If we did not make a mistake, you must pay all

TruWest® Credit Union

Federally Insured by NCUA
1667 N Priest Dr, Tempe, AZ 85281
1 (855) 878-9378

